                    CLOSEOUT MEMORANDUM FOR M-98070017

        On 7 July 1998, an NSF program director' brought an allegation of misconduct in
science to our attention. We were informed that an NSF proposal, submitted by subjects
1 and 2 with subjects 3 and 4 as paid "Faculty ~ssociates,"~was essentially the same as
another agency3proposal submitted by subjects 3 and 4 that named subjects 1 and 2 as
paid "Faculty Associates." It was alleged that the subjects sought duplicate funding to
do the same research.

     Neither of the declined proposals contained any information about the coincident
submission of the other proposal: the subjects answered "no" to the question about
submission of the same proposal to another agency on the cover pages of both proposals,5
and they included no information in the Current and Pending Support sections of the
proposals about the other submission.

      When we asked the subjects for an explanation, they said that the two proposals
represented a collaborative effort. They claimed that the cover pages had been prepared
for them by support staff and they had signed them without properly reviewing the
information; they asserted that, if either proposal had been funded, they would have
notified the other agency.

      In the absence of any other evidence that the subjects intended to obtain duplicative
funding, we concluded that their explanations established nothing worse than ineptitude
in proposal preparation and submission-clearly a deviation from acceptable behavior, but
not amounting to a serious deviation from accepted practices. Although this sloppy
administrative behavior is not misconduct in science, it does not absolve the subjects of
their responsibility to provide federal funding agencies with accurate and complete
information. We wrote to the subjects explaining that carelessness in providing
administrative detail is unacceptable and admonished them to be more careful in the
future to avoid allegations of misconduct in science against them.

This inquiry is closed an no further action will be taken.

cc: Integrity, IG




1
2
3
                                FOOTNOTES REDACTED
4
5



                                   Page 1 of 1
